Risk Assessment of Major Functions Within
USAID/Mexico

Report No. 1-523-03-003-S

June 24, 2003




                San Salvador, El Salvador
(“This page intentionally left blank”)
             June 24, 2003

             MEMORANDUM

             FOR:            USAID/Mexico Director, Paul E. White

             FROM:           Acting RIG/San Salvador, Christine M. Byrne “/s/”

             SUBJECT:        Risk Assessment of Major Functions Within USAID/Mexico (Report
                             No. 1-523-03-003-S)

             This memorandum is our report on the subject risk assessment. This is not an audit
             report and does not contain any formal recommendations for your action.

             Thank you for providing comments to the draft report. Your comments are included
             in Appendix II of this report.

             I appreciate the cooperation and courtesy extended to my staff during the risk
             assessment.



Background   Since the activation of the North American Free Trade Agreement in 1994, Mexico
             has become the second largest trading partner of the U.S., and is among the top ten
             export markets for 43 U.S. states. In November 2002, it became the primary
             supplier of crude oil to the U.S., providing almost 16 percent of imports. As
             announced by President Bush during Mexican President Fox’s visit in September
             2001, and reiterated in early May 2002 at the White House, “This is a recognition
             that the United States has no more important relationship in the world than the one
             we have with Mexico. Good neighbors work together and benefit from each other’s
             successes.”




                                                                                              1
Not all Mexicans are reaping the benefits this extensive trade and international
visibility might offer, however, and a growing inequality in the distribution of
benefits has given rise to the concept of “The Two Mexicos.” Although the
Government of Mexico estimated Gross Domestic Product (GDP) per capita at
about $6,400, data from the National Income and Expenditure Household Survey
implemented biannually by Mexico’s Statistics Institute for 2000 showed that about
53 percent of all Mexicans – or about 50.5 million people – had an annual income of
less than about $1,440, and 23.3 percent of all Mexicans − or about 22.2 million
people – had an annual income of less than $720. By comparison, the GDP per
capita in Guatemala (population 13 million) in the same period was $1,642, and in
Honduras (population 6.2 million) was $920.

USAID/Mexico’s program areas and their fiscal year (FY) 2002 and 2003
obligations,1 in millions, are presented in the following table:

            USAID/Mexico’s Obligations by Program Area
 Program Area                              FY 2002     FY 2003
 HIV/AIDS                                       $1.5        $2.2
 Tuberculosis                                    8.0         4.0
 Democracy                                       9.7        11.7
 Environment & Energy                            6.0         6.6
 Microfinance                                    0.7         0.9
 Training Internship Exchanges and               1.0         5.0
 Scholarships (TIES)
                    Total                      $26.9       $30.4

At April 1, 2002, USAID/Mexico’s staff consisted of 25 people − 13 foreign
service nationals, 3 U.S. employees under agreements with other U.S. government
agencies, 3 U.S. direct hires, and 6 U.S. personal service contractors.

The U.S. General Accounting Office (GAO) noted in Standards for Internal
Control in the Federal Government (November 1999) that internal controls
should provide reasonable assurance that agency objectives are being achieved,
operations are effective and efficient, and assets are safeguarded against loss.
Conducting risk assessments is one technique identified by the GAO to enhance
internal controls.

The purposes of the risk assessment were to identify areas where USAID/Mexico
officials could focus efforts to improve its management controls and to assist the
Regional Inspector General in planning future audits.           The scope and
methodology are shown in appendix I.

_____________________
1 Amounts are actual obligations made in 2002 and planned obligations for 2003 as reported by
USAID/Mexico in its fiscal year 2003 Annual Report.



                                                                                           2
Discussion   In judging the risk exposure for the major functions in USAID/Mexico, we
             considered:

             •    The amount of funding the individual programs received relative to the overall
                  mission budget (see above details of the mission’s $30.4 million FY 2003
                  program).

             •    The level of U.S. interest in the program activities (considered high for all
                  activities based on information presented in the background section on page
                  1).

             •    The level of involvement and/or support provided by the Government of
                  Mexico.

             •    The experience of key staff members in their area of expertise as well as in
                  Mexico.

             •    Incidences of improper administration or material weaknesses (if any) noted
                  in prior reviews, audits and/or as reported by mission officials.

             •    Management support for internal controls.

             •    Mission self-assessment on meeting planned targets.

             •    The level of risk inherently present in an activity that program or
                  administrative objectives will not be met.

             The risk assessment of USAID/Mexico covered 10 functions. One function was
             judged to have a “high” risk exposure, five functions to have a “moderate” risk
             exposure, and four to have a “low” risk exposure. These judgements are
             discussed in the following tables.

              Function Description                          Risk Exposure
              HIV/AIDS – Prevention and control of HIV/AIDS Moderate
              and other infectious diseases

              Risk Assessment Factors

              •    With fiscal year 2002 and 2003 funding levels of approximately $1.5 million
                   and $2.2 million respectively, the function is a significant portion of the
                   USAID/Mexico portfolio.




                                                                                              3
 •   Fiscal year 2003 is a transition year because the mission is revising its
     strategy. As such, many activities are ending and the new mix and structure
     of activities has yet to be decided.

 •   According to the mission’s self-assessment of progress, the activities did not
     meet the target included in the mission’s annual report for fiscal year 2002.
     However, this assessment was based on results from one minor indicator and
     the mission stated that it believes that the overall success of the HIV/AIDS
     activities has been positive.

 •   The USAID/Mexico manager responsible for the function’s activities has at
     least eight years of experience with USAID.

 •   The activities are funded entirely through USAID/Washington funding
     mechanisms.

 •   Management monitors function activities through review of annual work
     plans, periodic progress reports, and site visits.


 Function Description                                       Risk Exposure
 Tuberculosis – Prevention             and    control    of High
 Tuberculosis

 Risk Assessment Factors

 •   With fiscal year 2002 and 2003 funding levels of approximately $8.0 million
     and $4.0 million respectively, the function is a significant portion of the
     USAID/Mexico portfolio.

 •   Activities are implemented through an agreement with the Government of
     Mexico, which had to be renegotiated in fiscal year 2002.

 •   According to the mission’s self-assessment of progress, the activities did not
     meet their planned targets in fiscal year 2002. Additionally, an OIG audit
     report2 stated that the activities were behind schedule as of December 31,
     2001.

 •   The USAID/Mexico manager responsible for the function’s activities has 13
     years of experience with USAID.

_____________________
2
  Audit Report No. 1-523-02-009-P, dated May 6, 2002, issued by the Regional Inspector
General/San Salvador, entitled “Audit of USAID/Mexico’s Program to Develop Institutional
Capacity to Diagnose, Control and Monitor Tuberculosis.”



                                                                                      4
•   Tuberculosis activities involve direct procurement of equipment by USAID
    and probable implementation of programs by the United Nations
    Development Program, which is a public international organization.

•   Management monitors function activities through review of annual work
    plans, periodic progress reports, and site visits.


Function Description                             Risk Exposure
Democracy – Strengthening local governance and Moderate
legislatures and improving the administration of
justice, transparency and accountability

Risk Assessment Factors

•   With fiscal year 2002 and 2003 funding levels of approximately $9.7 million
    and $11.7 million respectively, the function is the most significant portion of
    the USAID/Mexico portfolio.

•   The function is considered extremely politically sensitive and many
    components are classified.

•   There is increasing political support of activities by the Government of
    Mexico.

•   The manager responsible for the function’s activities has six years of
    experience with USAID.

•   Fiscal year 2003 is a transition year because the mission is revising its
    strategy. As such, many activities are ending and the new mix and structure
    of activities has yet to be decided.

•   Activities are implemented currently with eight cooperative agreements and
    contracts. Under the new strategy (which is currently still in draft) the
    mission expects to utilize all U.S. contractors under existing General
    Services Administration and USAID/Washington funding mechanisms.

•   According to the mission’s self-assessment of progress, this function met its
    planned targets in fiscal year 2002.

•   Management monitors function activities through review of annual work
    plans, periodic progress reports, and site visits.




                                                                                 5
Function Description                                     Risk Exposure
Environment and Energy – Conserving critical Moderate
ecosystems and biological resources and reducing
carbon dioxide emissions and pollution

Risk Assessment Factors

•   With fiscal year 2002 and 2003 funding levels of approximately $6.0 million
    and $6.6 million respectively, the function is a significant portion of the
    USAID/Mexico portfolio.

•   The manager responsible for the function’s activities has four years of
    experience with USAID.

•   Fiscal year 2003 is a transition year because the mission is revising its
    strategy. As such, many activities are ending and the new mix and structure
    of activities has yet to be decided.

•   Activities are implemented currently with several types of funding
    mechanisms, including 11 cooperative agreements, 2 contracts, 2 agreements
    with other U.S. Government agencies, a grant, an endowment, and a training
    agreement. All activities, except the small grants endowment and a
    USAID/Washington-managed cooperative agreement, are expected to end by
    September 2004.

•   Under the new strategy (which is currently still in draft) the mission expects
    to implement activities through no more than five USAID/Washington
    funding mechanisms and/or agreements with other U.S. Government
    agencies.

•   According to the mission’s self-assessment of progress, this function met its
    planned targets in fiscal year 2002.

•   Management monitors function activities through review of annual work
    plans, periodic progress reports, and site visits.




                                                                                6
Function Description                                  Risk Exposure
Microfinance – Strengthening the institutional base Low
for sustainable micro enterprise growth by supporting
Mexican initiatives

Risk Assessment Factors

•   With fiscal year 2002 and 2003 funding levels of less than $1 million, the
    function was the smallest portion of the USAID/Mexico portfolio.

•   This is a relatively new function that started between 2001 and 2002. It is
    implemented by a U.S. contractor and managed by a U.S. employee under an
    agreement with another U.S. government agency.

•   As with the activities under other functions, this activity will be terminating
    in 2004.

•   According to the mission’s self-assessment of progress, this function met its
    planned targets in fiscal year 2002.


Function Description                                 Risk Exposure
Training Internship Exchanges and Scholarships – Low
Enhancing capacity of participating Mexican scholars
and institutions

Risk Assessment Factors

•   With fiscal year 2002 and 2003 funding levels of approximately $1 million
    and $5 million respectively, the function is the second smallest compared to
    the mission’s other program areas.

•   This function started with a joint announcement by Presidents Bush and Fox
    in September 2001.

•   The activity, implemented primarily by USAID/Washington through a
    cooperative agreement, will fund 750 Mexicans in master degree programs in
    the U.S. and will form 35 partnerships between U.S. and Mexican
    universities.




                                                                                 7
Function Description                                Risk Exposure
Contracting Office – Contract negotiation, contract Low
drafting, and contract management services

Risk Assessment Factors

•   USAID/Mexico does not have a Contracting Office.               The Regional
    Contracting Office in El Salvador supports the mission.

•   The equivalent of four staff members’ time in El Salvador’s Contracting
    Office (out of a total staff of 11) is dedicated to working with
    USAID/Mexico contracting issues. Staff has extensive USAID experience.

•   Contracting office staff travel at least quarterly to USAID/Mexico, and
    participate in mission and strategic objective team meetings.

•   Procurement plans were prepared and reviewed regularly.

•   A recent procurement evaluation yielded positive results.


Function Description                           Risk Exposure
Program Office – Coordinates budget and annual Low
reporting

Risk Assessment Factors

•   Operations are structured with oversight from USAID/Washington and
    mission management.

•   The manager responsible for the office’s activities has 13 years of experience
    with USAID; however, he just arrived in January 2003 and is the first
    program officer that USAID/Mexico has had. A deputy program officer is
    arriving on April 25, 2003. These positions were added as a result of
    recommendations from past management assessments.

•   The mission has made a substantial effort to reorganize the mission’s
    structure and staff’s responsibilities and to add two U.S. direct hires to
    manage this office.

•   Inherent risk in a program office is low.

•   Office personnel are members of the strategic and special objective teams.



                                                                                 8
Function Description                                Risk Exposure
Executive Office – General services, information Moderate
systems, personnel, procurement, maintenance, motor
pool, and property management

Risk Assessment Factors

•   Fiscal years 2002 and 2003 operating expense budgets were approximately
    $1 million.

•   The function has a high level of inherent risk due to the high number of
    regulations and procedures that must be followed in performing functions.

•   The Executive Officer position was added last year as a result of a
    management assessment of mission operations. Previous executive office
    operations were split between mission personnel with little to no training.

•   Local hire Executive Office staff has little experience with USAID rules and
    regulations. The Executive Officer has four years of experience with
    USAID.

•   USAID/Mexico participates in a U.S. Embassy system that provides several
    administrative services including: Medical, Human Resources, Shipping &
    Customs, Housing & Maintenance, and Security.

•   A recent procurement evaluation yielded several weaknesses that the
    Executive Officer is currently working to correct.

•   Inventory is counted at least annually.

•   The mission’s “Motor Pool” consists of one car and one driver.


Function Description                      Risk Exposure
Financial Management Office – Accounting, Moderate
voucher payment, and financial analysis

Risk Assessment Factors

•   USAID/Mexico is not an accounting station and it does not have a
    Controller’s Office. The Financial Management Office in San Salvador, El
    Salvador supports the mission.

•   A U.S. personal services contractor in El Salvador, with over 30 years of



                                                                              9
     experience with USAID, is authorized to certify vouchers.

 •   USAID/Mexico employs two financial analysts, with a combined experience
     of four years with USAID, who report to the Program Officer. Their work,
     however, is overseen by USAID/El Salvador staff.

 •   Although currently assigned to the Executive Office, one mission employee
     worked in the financial management area for over 18 years with
     USAID/Mexico.

 •   Financial Analysts are members of the strategic and special objective teams
     responsible for implementing functions.

 •   In the last two years, there were five instances where USAID/Mexico
     provided obligating documents late to USAID/El Salvador for entering into
     the accounting system. There was also one instance where USAID/Mexico
     obligated funds prior to ensuring that funds were available. As a result,
     $9,000 was obligated in excess of what was available at the time. This
     funding violation was properly documented and reported to
     USAID/Washington.

 •   Financial Management Office staff from USAID/El Salvador travel to
     Mexico at least quarterly and review audit inventory reports and other reports
     done by the financial analysts.


During the course of the risk assessment, we are making, based on our
conversations and limited review of mission documentation, the following
suggestion for mission management to consider. This is not a formal audit
recommendation. The suggestion does not necessarily represent deficiencies, but
involves possible improvements or enhancements to activities already in process.

An agreement was signed in 1951 between the U.S. and Mexican governments
that provides for all development assistance given to Mexico to be tax free.
Nonetheless, based on estimated amounts3 provided by USAID/Mexico, in one
year USAID made between $2.8 million and $4.9 million in payments to its
grantees and contractors that would have included between $420,000 and
$735,000 in taxes paid to the Government of Mexico. The mission should
continue working with the Government of Mexico to resolve this issue so that the
maximum amount of USAID funds can be used directly for development
assistance purposes.

_____________________
3
  According to USAID/Mexico, these amounts are a rough, and possibly high, calculation based
on the operating year budget for fiscal year 2001, which was $20 million.



                                                                                         10
Conclusion   This review assigned a risk exposure judgement of high, moderate, or low for
             each major function. The risk assignments are summarized in the table below.

                                                                 Risk Exposure
              Function Description                          High   Moderate    Low
              HIV/AIDS
                                                                        9
              Tuberculosis
                                                            9
              Democracy
                                                                        9
              Environment and Energy
                                                                        9
              Microfinance
                                                                                    9
              Training, Internship Exchanges and
              Scholarships (TIES)                                                   9
              Contracting Office
                                                                                    9
              Program Office
                                                                                    9
              Executive Office
                                                                        9
              Financial Management Office
                                                                        9
             A higher risk exposure judgement implies that the program objectives for a
             particular function are more vulnerable to not being achieved or to experiencing
             irregularities. Appendix I describes in detail the risk assessment’s scope and
             methodology.




                                                                                          11
(“This page intentionally left blank”)




                                         12
                                                                                      Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted a risk assessment of
              major functions within USAID/Mexico. The risk assessment considered
              operations principally for fiscal year 2003. Due to travel restrictions based on
              security concerns, we could not conduct the risk assessment in Mexico. The risk
              assessment was conducted at USAID/El Salvador from March 31 – April 24,
              2003, utilizing conference calls with USAID/Mexico officials.

              Methodology

              We interviewed officials as well as reviewed related documentation of major
              functions performed by USAID/Mexico. These documents covered background,
              organization, management, budget, staffing responsibilities, and prior reviews.
              The review of mission documentation was isolated and judgmental in nature and
              was conducted principally to confirm our discussions with management.

              We identified USAID/Mexico’s major functions based on input from the Mission
              Director, discussions with mission staff, and review of mission reports. We
              judged risk exposure (e.g., the likelihood of significant abuse, illegal acts, and/or
              misuse of resources, failure to achieve program objectives, and noncompliance
              with laws, regulations and management policies) for those major functions. We
              assessed overall risk exposure as high, moderate, or low. A higher risk exposure
              simply indicates that the particular function is more vulnerable to not achieving its
              program objectives or to experiencing irregularities. We considered the following
              key steps in assessing risk exposure:

              •   The amount of funding the individual programs received relative to the overall
                  mission budget.

              •   The level of U.S. interest in the program activities.

              •   The level of involvement and/or support provided by the Government of
                  Mexico.

              •   The experience of key staff members in their area of expertise as well as in
                  Mexico.

              •   Incidences of improper administration or material weaknesses (if any) noted
                  in prior reviews, audits and/or as reported by mission officials.

              •   Management support for internal controls.

              •   Mission self-assessment on meeting planned targets.


                                                                                                13
                                                                         Appendix I


•   The level of risk inherently present in an activity that program or
    administrative objectives will not be met.

These risk exposure assessments were not sufficient to make definitive
determinations of the effectiveness of internal controls for major functions. As
part of the scope of the review, we (a) identified, understood, and documented
relevant internal controls and (b) determined what was already known about the
effectiveness of internal controls.

The risk assessment has the following limitations.

•   First, we assessed risk exposure at the major function level only.

•   Second, we only assessed risk exposure. The assessments were not sufficient
    to make definitive determinations of the effectiveness of internal controls for
    major functions. Consequently, we did not (a) assess the adequacy of internal
    control design, (b) determine if controls were properly implemented, nor (c)
    determine if transactions were properly documented.

•   Third, higher risk exposure assessments are not definitive indicators that
    program objectives are not being achieved or that irregularities are occurring.
    A higher risk exposure simply implies that the particular function is more
    vulnerable to such events.

•   Fourth, risk exposure assessments, in isolation, are not an indicator of
    management capability due to the fact that the assessments consider both
    internal and external factors, some being outside the span of control of
    management.

•   Fifth, comparison of risk exposure assessments between organizational units
    is of limited usefulness due to the fact that the assessments consider both
    internal and external factors, some being outside the span of control of
    management.




                                                                                14
                                                                                         Appendix II


Management
Comments




                                                                                        13 June 2003

         MEMORANDUM
         UNCLASSIFIED

         TO:            Timothy E. Cox
                        Regional Inspector General/San Salvador

         FROM:          John Beed
                        Acting Mission Director, USAID/Mexico

         SUBJECT:       Risk Assessment of Major Functions Within USAID/Mexico, Report No.
                        1-523-03-0XX-S



         Mission Management has reviewed subject draft report and generally agrees with its
         content.

         In support of your suggestion, the Mission plans to continue to work with the
         Government of Mexico to resolve the tax reimbursement issue. The Mission is
         committed to reducing risk and vulnerabilities at all levels and will continue to strive to
         achieve this goal.

         Thank you for taking the time to conduct this assessment. In particular, we appreciate
         your willingness to work so flexibly and collaboratively given the “virtual”
         circumstances. As always, your staff pursued this assessment with utmost
         professionalism and openness.

         Please do not hesitate to contact me or my staff if you need additional information to
         finalize this report.




                                                                                                       15
